U.S. Department of the Interior
Office of Inspector General




           SURVEY REPORT


        FOLLOWUP OF RECOVERY
   OF IRRIGATION INVESTMENT COSTS,
        BUREAU OF RECLAMATION

              REPORT NO. 98-I-250
                FEBRUARY 1998
                                                                                     W-IN-BOR-004-96


                United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                          Washington, D.C. 20240




                                     SURVEY REPORT
Memorandum

T o ..     Assistant Secretary for Water and Science
                                         -3
From:      Robert J. Williams        3
                                    p-&i. Lt 1 cc/d L&+4-
           Acting Inspector General         >+

Subject: Survey Report on Follow-up of Recovery of Irrigation Investment Costs,
         Bureau of Reclamation (No. 98-I-250)

                                      INTRODUCTION
This report presents the results of our followup survey of recommendations presented in our
October 1989 report “Review of the Timely Recovery of Irrigation Investment Costs, Bureau
of Reclamation” (No. 90-05)’ The objective of the followup review was to determine
whether the Bureau of Reclamation had satisfactorily implemented recommendations in the
prior report and whether any new recommendations were warranted.

BACKGROUND

The Bureau was established in 1902 to develop and manage water-related resources,
including multipurpose projects that benefit water and power users in 17 western states.2
Since 1902, the Bureau has constructed an infrastructure of water projects and related
facilities throughout these states. Currently, Bureau projects include 343 storage dams and
reservoirs, 58 hydroelectric power plants, and 54,550 miles of canals and other conveyance
and distribution facilities. The Bureau is the largest wholesaler of water in the United States
and delivers irrigation and municipal and industrial water to more than 30 million people.

‘The 1989 report summarized the results of our review of the Bureau’s Pacific Northwest Region, which
included the Columbia Basin Project, and three prior audit reports: “Review of the Timely Recovery of
Irrigation Investment Costs - Pick-Sloan Missouri Basin Program, Bureau of Reclamation (No. 89-94),” issued
in July 1989; “Review of the Timely Recovery of Irrigation Investment Costs - Colorado River Storage Project,
Bureau of Reclamation (No. 89-67),” issued in April 1989; and “Review of the Timely Recovery of Irrigation
Investment Costs - Central Arizona Project, Bureau of Reclamation (No. 89-03),” issued in October 1988.

2Bureau projects are located in Arizona, California, Colorado, Idaho, Kansas, Montana, Nebraska, Nevada,
New Mexico, North Dakota, Oklahoma, Oregon, South Dakota, Texas, Utah, Washington, and Wyoming.
The Bureau is the sixth largest power producer in the West: in fiscal year 1996, its 58 power
plants generated more than 53 billion kilowatt hours of electrical energy.3

The costs of Bureau projects are allocated or assigned to specific project purposes and are
generally classified as reimbursable or nonreimbursable. The costs assigned to flood control,
recreation, and navigation are primarily nonreimbursable; that is, the costs are not repaid by
specific project beneficiaries but are borne by the general taxpayer. The costs assigned to
power production and to irrigation and municipal and industrial water supply are
reimbursable, and water and power users enter into contracts with the Bureau for repayment
of these costs before project construction begins. The costs assigned to the power and
municipal and industrial water supply purposes of the project are interest bearing, while the
costs assigned to the irrigation purpose are interest f?ee. In addition, irrigation water users
are required to repay only that portion of the irrigation investment that is within their ability
to pay, as determined by the Bureau.4 The remainder of the irrigation investment is repaid
by the power users through power sales by the Department of Energy’s power marketing
administrations. This repayment by the power users is known as irrigation assistance. Under
current Bureau and power marketing administration policy, the payment of the interest-free
irrigation assistance is deferred until power users have repaid the power investment.

In October 1989, the Office of Inspector General issued’the audit report “Review of the
Timely Recovery of Irrigation Investment Costs, Bureau of Reclamation” (No. 90.05),
which addressed the financial impact on the U.S. Treasury of the Bureau’s irrigation
repayment policy. The report found that the Bureau’s policy of delaying the payment of
irrigation assistance until after repayment of the power investment was not a sound business
practice and resulted in substantially reduced revenues to the U.S. Treasury. The report
noted that Section 5 of the Flood Control Act of 1944 required the sale of power “in such
manner as to encourage the most widespread use thereof at the lowest possible rates to
consumers consistent with sound business principles.” The report stated that the policy of
repaying the interest-bearing debt first was developed by the Bureau and the Federal power
marketing administrations to provide for recovery of all investment costs within authorized
repayment periods while minimizing power rates to the extent possible. However, the policy
did not provide for consistency with sound business principles, as required by the Flood
Control Act. The report concluded that recovery of irrigation assistance in equal annual
installments concurrent with the recovery of the power investment would increase revenues
to the U.S.‘Treasury by an estimated $2.1 billion while requiring only minor increases in
consumer power costs. Regarding consumer power costs, the report stated that, for the Pick-
Sloan Missouri Program, the average monthly bill for a residential user whose primary
heating source is electric would increase by about $2.00 to accommodate the increase. The
present value of the increased revenues gained from the accelerated recovery of the irrigation



3A kilowatt-hour is a basic unit of electrical energy that equals 1 kilowatt of power (a kilowatt is equal to
1,000 watts or about 1.34 horsepower) applied for 1 hour.

                is the principle of pricing goods or services on the basis of family income or some other
measure of financial capability rather than on the basis of benefits received.

                                                     2
debt was calculated at $415 million.5 The report recommended that the Bureau obtain legal
advice from the Solicitor as to whether Congressional action was needed for revising the
irrigation assistance repayment policy to require recovery of the interest-free irrigation
assistance in equal annual installments (straight-line amortization basis) over individual
project or unit repayment periods concurrent with repayment of the interest-bearing debt.
The report also recommended that the Bureau, consistent with this advice, either revise the
policy or propose legislation to revise the policy.

In its response to our report, the Bureau stated, “The issue of timely recovery of irrigation
costs . . . [was] of sufficient importance to pursue.” The Bureau subsequently asked for
Solicitors’ opinions on whether Congressional action was required to revise its policy to
require recovery of irrigation assistance concurrent with recovery of the power investment
for the Pick-Sloan Missouri Basin Program, the Colorado River Storage Project, and the
Federal Columbia River Power System. In its response, the Bureau also stated that the
Central Arizona Project should not be included because the Assistant Secretary for Policy,
Management and Budget agreed with the Bureau that straight-line amortization was not
appropriate for this project.

On March 16, 1990, a field solicitor advised the Bureau’s Great Plains Region that the
straight-line amortization method could not be implemented for the Pick-Sloan Missouri
Basin Program without Congressional approval. In an April 5, 1990, memorandum, the
Bureau supported legislation proposed by the Department of Energy that required concurrent
repayment of irrigation assistance and power investment. On July 2, 1990, the Assistant
Secretary for Policy, Management and Budget notified the Bureau and the Inspector General
by memorandum that the Assistant Secretary was satisfied that the intent of both audit
recommendations had been met. The Assistant Secretary stated:

        Given the Solicitor’s opinion, and the proposed legislation and BOR’s
        pureau of Reclamation’s] support of it, I am satisfied that the intent of both
        audit recommendations has been met. Consequently, by copy of this
        memorandum, I am notifying the Commissioner of Reclamation that no
        further action is required of BOR on either recommendation.

SCOPE OF SURVEY

The scope of this review consisted primarily of discussions with Bureau officials and a
review of pertinent documents, including applicable Solicitors’ opinions; memoranda to and
from the Assistant Secretary for Policy, Management and Budget, the Assistant Secretary for
Water and Science, and the Commissioner of Reclamation; and legislation proposed by the
Department of Energy. Because the scope of this review was limited to the concurrent
repayment aspects of irrigation assistance, we did not examine the Bureau’s internal controls,



makes $1 earned in the future worth less than $1 earned today. For example, assuming an interest rate of
8 percent, $1 due in 10 years is worth only $.46 today.

                                                   3
although we reviewed the Department’s Annual Report on Accountability for fiscal year
1996 and determined that there were no reported weaknesses within the scope of our review.

                             RESULTS OF SURVEY
The Bureau of Reclamation has not taken the actions necessary to accelerate recovery of
irrigation assistance concurrent with the power investment. The Flood Control Act of 1944
requires the sale of power at the lowest possible rate consistent with sound business
principles. In addition, the General Accounting Office has issued two reports subsequent to
our 1989 audit report that noted the benefits to the Federal Government of concurrent
repayment of irrigation assistance. We found that, although the Bureau requested and
received advice from the Office of the Solicitor, it had not revised its policy for the
repayment of irrigation assistance based on the advice received and that, although the Bureau
supported the legislation proposed by the Department of Energy, the Congress did not enact
the legislation. As a result of the delayed repayment, the value of the irrigation investment
recovered by the Bureau will be substantially reduced because the Federal Government has
to wait longer to receive its money, thus providing an additional subsidy to irrigation, the
cost of which will be unnecessarily borne by the general taxpayers rather than by project
beneficiaries. We estimated in 1989 that concurrent recovery of the interest-free irrigation
assistance could increase revenues to the U.S. Treasury by $2.1 billion (which has a present
value of $415 million) over the various repayment periods.

Proposed Legislation

In 1990, the Department of Energy proposed legislation intended, in part, to place all power
repayment obligations, including irrigation assistance, on a straight-line amortization basis,
with interest. The proposal stated:

       The purpose of this legislation . . . [was] to place the repayment practices
       o f . . . power marketing administrations on a more businesslike basis by
       establishing a regular schedule for retiring the Federal investment.

In an April 5, 1990, memorandum to the Department of the Interior’s Legislative Counsel,
the Acting Commissioner of Reclamation expressed the Bureau’s support of the legislation.
Specifically, the memorandum stated:

       Reclamation supports the timely recovery of repayment obligations as being
       consistent with administration policy and good business practices. If enacted,
       the Department of Energy’s proposed legislation would accomplish this goal.

However, the proposed legislation was not enacted, and similar legislation was not proposed
for consideration in subsequent legislative sessions.
Solicitors’ Opinions

In a January 29, 1990, memorandum to the Bureau’s Upper Colorado Region, the Regional
Solicitor, Intermountain Region, stated that revenues in the Upper Colorado River Basin
Fund6 collected in connection with the operation of the four initial units of the Colorado
River Storage Project could, without further Congressional action, be paid annually to the
general fund of the U.S. Treasury to repay the construction costs of participating project
irrigation facilities. The July 2, 1990, audit resolution memorandum from the Assistant
Secretary for Policy, Management and Budget did not address the January 29, 1990,
Solicitor’s opinion, which stated that the Bureau could initiate concurrent repayment of the
irrigation assistance and the power investment for the participating projects of the Colorado
River Storage Project without Congressional approval. Notwithstanding the Solicitor’s
opinion, the Bureau did not revise its policy for repayment of irrigation assistance on this
project.

In regard to the Pick-Sloan Missouri Basin Program, a March 16, 1990, memorandum from
the Field Solicitor for the Office of the Solicitor’s Pacific Northwest Region stated that “the
straight-line amortization method . . . [could] not be implemented for PSMBP [Pick-Sloan
Missouri Basin Program] without Congressional approval.” A preliminary undated opinion
from the Field Solicitor in Boise, Idaho, stated that straight-line amortization could be
implemented for the Federal Columbia River Power System but that “in view of the
legislative background, Congress should first be advised of the change before it is
implemented.” However, we found no record of final issuance of this preliminary opinion
or Bureau action to implement the opinion.

General Accounting Office Reports

The benefit to the Government of concurrent repayment of irrigation assistance and the
power investment was discussed in two General Accounting Office reports. The first report,
“Bureau of Reclamation: Information on Allocation and Repayment of Costs of
Constructing Water Projects” (No. GAORCED-96.109), issued in July 1996, noted that
irrigation assistance from power users reduced the value of the reimbursements the
Government received over the repayment period. The report stated:

         In repaying a project’s construction costs, power revenues annually deposited
         in the Treasury are typically applied first to the payment of the power users’
         interest-bearing repayment obligation. Once the interest-bearing obligation
         has been repaid, revenues are accumulated for repayment of the non-interest-
         bearing irrigation assistance. As such, irrigation assistance is typically
         credited in a lump sum at or near the end of the irrigators’ normal repayment

‘The Upper Colorado River Basin Fund was established by the Colorado River Storage Project Act of
April 11,1956 (Public Law 84-485), Section 5, to repay the costs of constructing, operating, and maintaining
the four initial storage units constructed as part of the Colorado River Storage Project and the participating
projects. The four initial storage units were the Wayne N. Aspinall (formerly Curecanti), the Flaming Gorge,
the Navajo, and the Glen Canyon Units.

                                                      5
         value of the funds received by the federal government, which effectively has
         to wait longer to get its money, is reduced. In contrast, irrigators repay their
         allocated construction costs in a continuous stream of payments over the
         repayment period.

The General Accounting Office report did not make any recommendations.

In the second report, “Power Marketing Administrations: Cost Recovery, Financing, and
Comparison to Nonfederal Utilities” (No. GAO /AIMD-96-145), issued in September 1996,
the General Accounting Office addressed the recovery of power-related costs and the extent
to which power-related projects were subsidized by the Federal Government. The report
stated, “The financing subsidies were about $200 million in fiscal year 1995 . . . [and] the
cumulative financing subsidy over the last 30 years has been several billion dollars. ” The
subsidies resulted from Department of Energy policies requiring that power marketing
administrations pay off high-interest appropriated debt first while retaining low- and no-
interest debt. In citing a power marketing administration that had approximately $1.5 billion
in outstanding irrigation debt as of September 30, 1995, to be repaid without interest, the
report stated:

         The repayment period for the irrigation debt could be up to 60 years after
         completion of construction -- up to a lo-year development period plus a
         50-year repayment period. Because DOE’s [Department of Energy’s]
         repayment policies require PM-AS [power marketing administrations] to repay
         their highest interest rate debt first (unless lower interest-bearing debt is at the
         end of its repayment period, in which case it would be paid first), the irrigation
         debt, at zero percent interest, will generally not be repaid until the end of its
         repayment period.

The report did not contain any recommendations.

Conclusion

We recognize that the cooperation of the Department of Energy’s power marketing
administrations would facilitate proposing legislation requiring concurrent repayment of
irrigation assistance and power investment and believe that such cooperation should be
forthcoming based on the stated policy of the power marketing administrations to develop
rates that are consistent with applicable laws and are the lowest consistent with sound
business principles.’ To that end, we noted that this policy was reiterated in oversight
hearings on accounting practices for Federal power marketing administrations held in
September 1996 by a House Subcommittee on Water and Power Resources. The
Subcommittee Chairman stated:




Administrations, as published in the Federal Register, Vol. 49, No. 120, Wednesday, June 20, 1984.

                                                     6
         Under the Flood Control Act of 1944 and subsequent authorizing legislation,
         the PM& [power marketing administrations] are charged with marketing
         power at the lowest rate consistent with sound business principles.
         [Emphasis added.]

In our opinion, the policy of allowing the irrigation assistance assigned to power to be repaid
with discounted future dollars at the end of the project repayment period provides a subsidy
to the power users. The effect of this policy is to shift the burden of repaying the past and
current irrigation assistance to future power users and the cost of the delayed repayment of
irrigation assistance to all taxpayers, including those who receive no direct benefit from the
projects.

Because of the magnitude of the increased revenues which could be gained from accelerated

that the 1990 legislation was not enacted, we believe that the Bureau should actively pursue
the changes in policy and legislation necessary to allow recovery of irrigation assistance
concurrent with the power investment and not defer action because the action involves other
Federal agencies or requires Congressional approval. We believe that this would be
consistent with the Bureau’s Mission Objective III, “Business Practices and Productivity
Objective, ” contained in its Final Strategic Plan for 1997-2002, dated September 30, 1997.
Strategy 14, “Financial Management, ” under that objective states, in part, that the “desired
outcome is to satisfy Reclamation’s obligations to the Treasury and the American taxpayers”
and that “Reclamation must ensure that policies, contractual arrangements, and rate structures
will lead to: recovery of outstanding capital costs owed to the United States.” We also
believe that concurrent repayment of irrigation assistance would be in consonance with the
Commissioner’s plan for attaining the Bureau’s stated vision, which provides for
“implementing innovative, sound business practices with timely and cost-effective, measurable
results. ”

Recommendations

We recommend that the Commissioner, Bureau of Reclamation, direct appropriate officials
to:

        1. Revise the irrigation assistance repayment policy for the participating projects of
the Colorado River Storage Project to require recovery of the irrigation assistance in equal
annual installments over the individual projects’ or units’ repayment periods concurrent with
the repayment of power investment.

        2. Request a final opinion from the Office of the Solicitor as to whether the
repayment policy for the Federal Columbia River Power System projects can be revised to
allow concurrent recovery of irrigation assistance without Congressional approval. If
consistent with the Solicitor’s opinion, the irrigation assistance repayment policy for the


&cause the Bureau had not changed its policies for the recovery of irrigation assistance, we did not request the
Department of Energy’s power marketing admin.&rations to update the amounts summarized in our 1 989 report.

                                 .                     7
Federal Columbia River Power System should be revised to allow the recovery of irrigation
assistance in equal annual installments concurrent with recovery of the power investment.
Further, the Congress should be advised of the change before it is implemented. If it is
determined that the Bureau needs Congressional approval before revising the repayment
policy for the Federal Columbia River Power System then this project should be included in
the legislation proposed under Recommendation 3.

        3. Propose, in cooperation with the Department of Energy’s power marketing
agencies, legislation to allow the recovery of irrigation assistance in equal annual installments
concurrent with the recovery of the power investment for all applicable projects.

Assistant Secretary for Water and Science Response and Office of
Inspector General Reply

The November 17, 1997, response (Appendix 1) to our draft report from the Assistant
Secretary for Water and Science did not concur with our three recommendations. Based on
the response, we consider all three recommendations unresolved (Appendix 2).

The response stated that “this is not the appropriate time for the Bureau of Reclamation to
pursue the recommendations in the report.” In that regard, the response stated that it found
“no direction by the Congress since the passage of the Reclamation Act of 1902 regarding the
payment of irrigation assistance that requires revision of the irrigation assistance repayment
policy. ” The response further stated, “Existing policy on this issue is based on legislative
provisions and legal opinions of the Solicitor which provide for the marketing of power at the
lowest rate consistent with the orderly repayment of all power costs.”

We do not agree that the Bureau requires specific direction from the Congress to revise its
irrigation assistance repayment policy on all projects. As stated in our report (page IO),
guidance provided by the Office of the Solicitor indicates that concurrent recovery of
irrigation investment for the Colorado River Storage Project and the Columbia Basin Project
is allowed and that the Bureau needs only to inform the Congress before the change is
implemented on the Columbia Basin Project. However, the Bureau has not taken appropriate
actions to revise the policy for these projects.

We agree that the irrigation assistance policy is based on legislative provisions and related
opinions of the Office of the Solicitor and that the policy has evolved over a period of years.
However, the legislative guidance also states that the orderly repayment of all power costs
should be in accordance with sound business practices and that the Government’s financial
interests should be protected. For example, the Flood Control Act required the sale of power
at the lowest possible rate consistent with sound business principles. We believe that the
current policy for the recovery of irrigation investment costs assigned to power, which allows
repayment at the end of the repayment period, is not based on sound business principles.

In addition, the Reclamation Projects Act of 1939, an act that addressed the water users’
ability to pay, allowed variable repayment of irrigation construction costs depending on the


                                               8
agricultural conditions that would “protect adequately the financial interest of the United
States in said projects.” Although the concept of variable repayment based on a decline in
agricultural income was allowed, the Act did not authorize methods of repayment that would
lessen the amount payable by the water users or that would reduce the value of the repayment
dollars received during the repayment period.

Further, the Bureau, on occasion, has revised its policies within current legislative authorities
to address changing circumstances. For example, in hearings for its fiscal year 1997
appropriations, the Bureau stated that it had revised its policies and procedures for indexing,
reviewing, and reporting the cost ceilings of individual projects to the Congress. The Bureau
stated that it had undertaken the revision in response to the Office of Inspector General audit
report “Cost Increases Incurred on the Hoover Dam Visitor Facilities Program, Bureau of
Reclamation” (No. 94-I-915), issued in July 1994.

The response also stated that the Congress was currently debating deregulation of the electric
utility industry and that if deregulation occurred,“implementing the recommendations could
add an additional ‘stranded cost’ which could adversely affect the marketing of Federal
hydropower and place the orderly repayment of Federal power facilities and the repayment
of the irrigation assistance at risk.” The response did not, however, contain information to
support the Bureau’s concerns about the adverse affects of the increased costs on the
marketing of Federal hydropower and repayment of the Federal investment. As reported in
the audit report “Review of the Timely Recovery of Irrigation Investment Costs” (No. 90.05),
issued in October 1989, we believe that the future rate increases which would be required to
cover straight-line amortization (concurrent recovery) are relatively small and would not
significantly affect the consumers’ monthly electric bills because the cost of purchasing
Federal power is only one of several costs, such as labor, equipment, or infrastructure,
incurred by utilities that make up consumers’ bills. Consequently, additional information and
details are needed on the adverse impact of concurrent recovery and on why it would be
inappropriate to pursue implementation of the recommendations during deregulation.

In accordance with the Departmental Manual (360 DM 5.3) we are requesting a written
response to this report by March 20, 1998. The response should provide the information
requested in Appendix 2.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings,
actions taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the assistance of Bureau of Reclamation personnel in the conduct of our audit.
                                                                          APPENDIX 1

             United States Department of the Interior
                            OFFICE OF THE SECRETARY
                                   Washington. DC. 20230




                                      MEMORANDUM

To ..         Office of Inspector General


From:         Patricia J. Beneke


Subject:      Draft Audit Report on Followup of Recovery of Irrigation Investment
              Costs, Bureau of Reclamation, September 1997 (No. W-IN-BOR-004~96)

We appreciate the opportunity to review the subject audit report. We will continue to         l




cooperate with and support the power marketing administrations in the administration of
the Nation’s national resources consistent with the intent of the Congress as
established by law. At this time, the Department does not concur with the
recommendations in the subject audit report. We find no direction by the Congress
since the passage of the Reclamation Act of 1902 regarding the repayment of irrigation
assistance that requires revision of the irrigation assistance repayment policy. Existing
policy on this issue is based on legislative provisions and legal opinions of the Solicitor
which provide for the marketing of power at the lowest rate consistent with the orderly
repayment of all power costs.

The Congress is currently debating the deregulation of the electric utility industry. If
deregulation occurs, implementingethe recommendations could add an additional
“stranded cost” which could adversely affect the marketing of Federal hydropower and
place the orderly repayment of Federal power facilities and the repayment of the
irrigation assistance at risk. Given the possibility of deregulation and the current
dynamic nature of the electricity market, we conclude that this is not the appropriate
time for the Bureau of Reclamation to pursue the recommendations in the report.

The Department further supports the following comments provided by Reclamation on
the subject audit report at the exit conference. Reclamation offers the following
comment with regard to the discussion at the exit conference on July 23, 1997. The
Director of Reclamation’s Program Analysis Office is quoted as stating that
Reclamation’s nonconcurrence with all of the recommendations was based upon a
conclusion that concurring ‘. . . would increase power rates.” This is not an accurate
summary of his position. As was stated at the conference, Reclamation opposes
straight-line amortization at this time for the reasons stated above.

Please contact Luis Maez at (303) 236-3289, extension 245, if you have any questions
or if additional information is required.
                                            10
                                                                       APPENDIX 2


         STATUS OF AUDIT REPORT RECOMMENDATIONS


    Finding/
Recommendation
   Reference       Status                         Action Required

   1, 2, and 3   Unresolved.   Reconsider the recommendations. If concurrence is
                               indicated, provide action plans that include target
                               dates and titles of the officials responsible for
                               implementation.      If nonconcurrence is indicated,
                               provide reasons for the nonconcurrence, including
                               specific information on the impact of concurrent
                               recovery of irrigation assistance on power rates and on
                               the    appropriate      time to       implement     the
                               recommendations.




                                     11
                ILLEGAL OR WASTEFUL ACTIVITIES
                    SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GENERAL BY:


 Sending written documents to:                                Calling:


                    Within the Continental United States

U.S. Department of the Interior                        Our 24.hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, NW.                                     l-800-424-5081 or
Mail Stop 5341                                         (202) 208-5300
Washington, I D. C. 20240


                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                   Outside the Continental United States


                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                               North Pacific Retion

U.S. Department of the Interior                        (700)550-7428 or
Office of Inspector General                            COMM 9-O11-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
Toll Free Numbers:
 l-800-424-5081
 T’DD l-800-354-0996

FI’S/Commerciai Numbers:
 (202) 208-5300
 TDD (202) 208-2420

 HOTLINE
1849 C Street, N.W.
Mail Stop 5341
Washington. D.C. 20240
